                                                                       Report No. WR-VS-NPS-0013-2010
                                                                                     September 24, 2010


Memorandum

To:            Director, National Park Service

               Assistant Secretary for Policy, Management and Budget
                (Attention: Associate Director for Finance, Policy and Operations)

From:          Michael P. Colombo
               Regional Manager

Subject:       Verification Review of Recommendations Three, Five, Six, and Seven of Audit
               Report Titled “The National Park Service’s Recording of Facility Maintenance
               Expenditures” (C-IN-NPS-0013-2004), January 2005

       The Office of Inspector General (OIG) has completed a verification review of four of
seven recommendations presented in the subject audit report. The objective of the review was to
determine whether the recommendations were implemented as reported to the Office of Financial
Management, Office of Policy, Management and Budget. In two memorandums dated
September 7, 2006, and September 29, 2008, the Office of Financial Management (PFM)
reported to the Office of Inspector General that all of the recommendations in the subject report
had been implemented, and the audit report was closed.

Background

        Our January 2005 audit report, “The National Park Service’s Recording of Facility
Maintenance Expenditures,” (Report No. C-IN-NPS-0013-2004) made seven recommendations
to the National Park Service (NPS) relating to the recording of facility maintenance expenditures.

         In a November 17, 2004 response to the draft of the subject report, NPS concurred with
the findings and recommendations and stated that it would take immediate steps to implement
the first six recommendations. NPS planned to implement Recommendation 7, which
recommended realignment of its budget requests, once all the other recommendations were
completed and accuracy of expenditure reporting showed significant improvement. Based on this
response, we considered all seven recommendations resolved but not implemented and referred
them to PFM for tracking and implementation. In two memorandums dated April 17, 2006, and
May 9, 2006, PFM reported that all seven recommendations had been implemented, and the
audit report was closed.




                        Office of Audits, Inspections, and Evaluations | Sacramento, CA
       In August 2006, we conducted a verification review of the seven recommendations and
determined that Recommendations 1, 2, and 4 had been implemented as reported, but
Recommendations 3, 5, 6, and 7 had not been implemented. We requested PFM to reinstate
Recommendations 3, 5, 6, and 7, and take appropriate follow-up action.

Scope and Methodology

      The scope of this review was limited to determining whether NPS took action to
implement the recommendations. To accomplish our objective, we reviewed the supporting
documentation that NPS officials provided us relating to each of the four recommendations.

        We did not perform any site visits or conduct any detailed fieldwork to determine
whether the underlying deficiencies that were initially identified have actually been corrected. As
a result, this review was not conducted in accordance with the “Government Auditing
Standards,” issued by the Comptroller General of the United States.

Results of Review

       Our current review found that NPS implemented Recommendations 3 and 7 but did not
implement Recommendations 5 and 6. We are requesting that PFM reinstate recommendations 5
and 6 and take appropriate follow-up actions.

       Recommendation 3: Require park units to use time input documents to capture
       facility maintenance efforts accurately in the time accounting system. Employees’
       time must be reported against accounting codes that accurately reflect the work
       effort expended.

        NPS officials reported that NPS uses Quicktime to accurately capture employee hours
and that it can account for the primary work element (PWE) facility maintenance and operations
accounting structure. We learned that Quicktime is being used in all the parks. We obtained a
Quicktime report, which includes the PWEs for facility maintenance and facility operations.
After reviewing this report and the list of PWEs and speaking with NPS officials, we concluded
that Recommendation 3 has been resolved and implemented.

       Recommendation 5: Establish a monitoring process to ensure that facility
       maintenance expenditures are being accurately captured and reported. For
       example, require the regions to conduct periodic comparisons of park facility
       maintenance expenditures against park facility maintenance work efforts and
       against budget planning documents and request explanations for discrepancies.

        In PFM’s memo to the OIG dated September 7, 2006, it stated, “NPS would implement a
plan to conduct periodic comparisons of park facility maintenance expenditures against budget
planning documents.” NPS provided us with a spreadsheet from the Pacific West Region that
compares the financial system (AFS) and their work management system (FMSS). During our
review we learned from NPS officials that NPS has not established a monitoring system and is
currently creating one but waiting for Financial and Business Management System to be


                                                2
implemented in fiscal year 2012. NPS officials told us the Pacific West Region is the only region
using the spreadsheet to compare AFS and FMSS. NPS hopes in the next two years other regions
will adopt the Pacific West’s monitoring process. Because NPS does not have a monitoring
process established throughout the regions, we concluded that this recommendation has not been
implemented.

       Recommendation 6: Hold park managers accountable for ensuring the accuracy
       of their reporting including taking action against park managers who fail to
       properly account for facility maintenance expenditures.

       In March 2005, NPS issued a memorandum to the Regional Directors in response to this
recommendation. After reviewing the memorandum we did not find any information that holds
park managers accountable for ensuring the accuracy of their reporting or any information
regarding what actions would be taken if park managers fail to properly account for facility
maintenance expenditures. We concluded that this recommendation has not been implemented.

       Recommendation 7: Realign the budget request to more closely reflect the actual
       facility operations and facility maintenance obligations within the facility
       operations and maintenance sub-activity. This realignment should not be made
       until facility operations and facility maintenance obligations have been accurately
       recorded in the accounting system for at least one fiscal year.

       An NPS official told us the budget realignment request in 2006 was accepted by the
Office of Management and Budget and would be used for the fiscal year 2010 budget. We
obtained a copy of the fiscal year 2010 budget realignment and based on our review conclude
that Recommendation 7 is resolved and implemented.

Conclusion

       We informed NPS officials of the results of this review on September 21, 2010.

       If you have any questions about this report, please contact me at (916) 978-5653.

cc: Eric Eisenstein, Branch Chief, Internal Control and Audit Follow-up, Office of Financial
     Management (MS 2557-MIB)




                                                3
